                                             U.S. Department of Justice

                                             United States Attorney
                                             District ofMontana
      Michael W. Cotter
                                             P.O. Box NTS
      United States Attorney                Billing,, MT 59103                    Phone: (406) €57-6101




                                                      April 7, 2011



  Todd J. Zinser, Inspector General
  U.S. Department of Commerce
  Office of Inspector General
  1401 Constitution Avenue, N.W.
  Washington, D.C. 20230

  Dear Inspector General Zinser:

            Thank you for taking the time to meet with us last week. We appreciate the
 briefing you provided and the opportunity to discuss with you the report OIG
 prepared regarding NOAA's enforcement program. Your insight and briefing is
 most helpful for U.S. Attorney Offices.

      The Working Group is in the process of scheduling a meeting with Dr.
 Lubchenco in the near future to discuss with her your report and the role U.JS
 Attorney Offices will play in NOAA's enforcement actions.

           We look forward to working with you in the future. Again, thanks for
meeting with us and sharing your thoughts.

                                           Sincere ly/~\



                                          MICHAEL W. COTTER
                                          United States Attorney
MWC.-skf

cc:
          Dr. Jane Lubchenco, Under Secretary - NOAA
          United States Attorneys (AGAC-EIWG)
         Marshall Jarrett, Director - EOUSA
         Norm Wong, Deputy Director - EOUSA
